                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

11    Case Number: A06090040                                                                  Page 1 of 1



                   An allegation of plagiarism within three NSF proposals1fiom eight source texts was
            brought against two PIS from different institutions2.

                   NSF OIG referred the inquiry to the University fiom which the proposal was ~ubmitted.~
            The Inquiry Committee found that only one PI^ was responsible for the questionable text and
            recommended the University send a letter of warning to that Subject. University administration
            however decided to bar the Subject from submitting proposals to any grant agency or conducting
            research as a PI at the University without approval and supervision for a period of five years.

                    NSF OIG accepted the Inquiry Committee's report. NSF OIG concurs that the second PI'
            did not contribute the portions of the proposal containing plagiarism. NSF OIG also concurs that
            the responsible PI included text in the proposal of a questionable nature. However, given the
            small amount of text involved and the University-imposed sanctions, we have written to the
            Subject suggesting that he be more careful in future proposals. No further action is warranted.

                      Accordingly, this case is closed.




11'
  NSF OIG Fonn 2 (1 1/02)
